No.

IN THE
SUPREME COURT OF THE UNITED STATES

MIGUEL A. CORUJO MERCADO
Petitioner
Vs.
STATE OF FLORIDA.
Respondent

PROOF OF SERVICE
, do swear ro declare that on this date,
I Miguel Angel Coruio Mercado
February 26. 2021. as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
United States Supreme Court. Clerk of the Court, at One First St. N.E. Washington,
D.C. 20543-0001: Office of Attorney General at 444 Seabreeze Blvd. Ste. 500,
Davtona Beach. Fla. 32118
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

T*ebm

1

<2b

, 20 2-1 ■

' (Signat

